1a
APPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
-----------------------------------------------------------------------

No. 18-3236
GEFT OUTDOORS, LLC,
Plaintiff-Appellant,
v.
CITY OF WESTFIELD, Hamilton County, Indiana,
Defendant-Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Indiana,
Indianapolis Division.
No. 17-cv-04063 – Tanya Walton Pratt, Judge.
-----------------------------------------------------------------------

ARGUED APRIL 5, 2019 – DECIDED APRIL 25, 2019
-----------------------------------------------------------------------

Before FLAUM, KANNE, and SCUDDER, Circuit
Judges.
FLAUM, Circuit Judge. GEFT Outdoors, LLC
began building a digital billboard on its property in
the City of Westfield, Indiana without obtaining or applying for the requisite sign permit. GEFT believed
Westfield’s relevant sign standards ordinance contains unconstitutional content-based speech restrictions

2a
and that this invalidity renders the ordinance nonexistent. GEFT only stopped installing the billboard
when a contract attorney for Westfield threatened to
arrest GEFT’s representatives if the installation work
continued. After this confrontation, Westfield and
GEFT filed dueling injunction motions. GEFT asked
for an injunction preventing Westfield from violating
its due process rights; Westfield asked the district
court to enjoin GEFT from installing the billboard
pending the outcome of this litigation. The district
court denied GEFT’s motion and granted Westfield’s
motion, and GEFT filed this interlocutory appeal. We
affirm.
I.

Background

A. GEFT’s Billboard & Westfield’s Sign
Standards
Plaintiff-appellant GEFT buys and leases land
upon which it builds, maintains, and operates signs. It
holds a valid lease-hold interest in property located in
Westfield (the “Esler Property”), and it initiated this
lawsuit because it sought to build a digital billboard
(the “Billboard”) on this leased property. To do so, it
needed a permit from both the State of Indiana and the
City of Westfield. See Ind. Dep’t of Transp., Outdoor
Advertising Control Manual 46 (2014), https://www.in.gov/
indot/files/Permits_OutdoorAdvertisingControlManual_
2014.pdf (Indiana permitting requirements “are in addition to any permit or licensing requirements of local
governing bodies”).

3a
Defendant-appellee Westfield adopted the WestfieldWashington Township Unified Development Ordinance in 2014. See generally Westfield-Washington
Township, Ind. Ordinance (“UDO”). The UDO regulates a broad range of development activities in
Westfield, including the design, placement, and
maintenance of signs within the city. Id. art. 6.17 (the
“Sign Standards”).
The Sign Standards require a permit for most
signs, but thirteen categories are exempt from that requirement (the “Permit Exceptions”). Id. art. 6.17(C)–
(D).1 The Sign Standards also prohibit twelve types of
signs entirely, two of which the parties discuss here.
See id. art. 6.17(E). “Off-premise Signs” are not allowed
in Westfield, “except as otherwise permitted by” the
UDO (the “Off-Premises Ban”). Id. art. 6.17(E)(5). An
off-premises sign is “[a] Sign directing attention to a
specific business, product, service, entertainment, or
any other activity offered, sold, or conducted elsewhere
than upon the lot where the Sign is displayed.” Id. art.
12.1. Westfield also bars “Pole Signs.” Id. art.
6.17(E)(4). A pole sign is “[a] Sign which is supported
by one or more poles, posts, or braces upon the ground,
in excess of six (6) feet in height, not attached to or
supported by any building.” Id. art. 12.1.

1

Westfield amended these categories in April 2018. Any
amendments are irrelevant for purposes of appeal, however, and
so we cite only to the version of the UDO in force during the relevant events in late 2017. This version is available in the record on
appeal, at page 32 of the Appendix.

4a
The UDO treats signs erected in violation of its
provisions (including signs erected without permits) as
common nuisances. Id. art. 11.2. To remedy such a nuisance, Westfield “may issue a stop work order and shall
advise the Property Owner of the sign . . . in writing of
a violation of this Chapter and specify a date for compliance. The written notice shall describe the violation,
appeal process, and enforcement provisions including
penalties that may be assessed.” Id. art. 11.5(A). The
city may also obtain an injunction in state court to restrain UDO violations. Id. art. 11.5(B).
GEFT obtained the requisite sign permit from Indiana in October 2017. However, it never obtained (or
even applied for) a sign permit from Westfield.
B. GEFT’s Billboard & Federal Lawsuit
Notwithstanding its lack of permit, GEFT began
to erect the Billboard on the Esler Property on November 2, 2017. Specifically, GEFT installed a steel pole in
the ground to serve as the Billboard’s foundation and
built a forty-square-foot “No Trespassing” sign nearby.
The next day, GEFT sued Westfield in the Southern
District of Indiana, challenging two portions of the
Sign Standards—the Permit Exceptions and the OffPremises Ban—as unconstitutional content-based
speech restrictions. GEFT specifically alleged the Permit Exceptions and the Off-Premises Ban violated the
First Amendment to the United States Constitution
and Article I, § 9 of the Indiana Constitution, and that
the Sign Standards did not comply with Indiana Home

5a
Rule requirements. GEFT sought as relief a declaratory judgment that the UDO’s Sign Standards chapter
was unconstitutional on its face and as applied, an order enjoining Westfield from enforcing the chapter, and
damages pursuant to 42 U.S.C. § 1983.
On November 7, Westfield posted a “Stop Work Notice” on the steel pole on the Esler Property. The notice
listed two UDO violations: “Installation of an accessory
structure with-out a permit” and “Installation of a sign
without a permit.” GEFT responded to this development by letter on November 21, informing Westfield
that it “intend[ed] to move forward with the erection of
the Billboard” within the next thirty days. GEFT also
informed the city that in its view, the Sign Standards
simply did not apply to this planned work:
The City’s Sign Standards purport to preclude
the erection of the Billboard. However, the
Sign Standards are unconstitutional under
applicable law, as they restrict GEFT’s right
to free speech under the First Amendment.
Because they are unconstitutional, it is as if
the Sign Standards do not exist. . . . Because
the Sign Standards are void due to their unconstitutionality . . . there are no local sign
regulations governing GEFT’s erection of the
Billboard.
In turn, Westfield sent another letter on November
22, elaborating on the UDO violations identified on its

6a
earlier Stop Work Notice.2 First, Westfield stated that
the steel pole constituted an “Accessory Building” under the UDO, and GEFT should have obtained an improvement location permit (separate from and in
addition to a sign permit) before installing it.3 Second,
Westfield informed GEFT that if the steel pole was intended to be part of a sign, there were two further issues: GEFT should have applied for a sign permit
before commencing installation, and in any event, the
UDO bans all pole signs. Finally, Westfield informed
GEFT that “[t]his letter is being provided as a warning
to notify you of these violations . . . Please remedy this
violation within thirty (30) days from the issuance of
this letter (December 22nd) in order to avoid further
enforcement action.” Westfield then posted two more
Stop Work Notices (identical to the first) on the steel
pole, on November 27 and December 8.
2

The letter referenced a third violation—“[t]he installation
of a nonconforming pole sign”—that is unrelated to the instant
lawsuit because it involves another sign on the Esler Property.
3
All improvements made to real property within Westfield
require improvement location permits. UDO art. 2.5(D). An “improvement” includes “[a]ny building, structure, parking facility,
fence, gate, wall, work of art, underground utility service, Land
Disturbing Activity, or other object constituting Development, a
physical alteration of real property, or any part of such alteration.” Id. art. 12.1. An “accessory building” is “[a] subordinate
building or structure, the use of which is incidental to and customary in connection with the Principal Building or use and
which is located on the same Lot with such Principal Building or
use and is under the same ownership.” Id. A structure, in turn, is
“[a]nything constructed or erected which requires location on the
ground or attachment of something having location on the
ground.” Id.

7a
Despite these notices, GEFT mobilized a construction team on December 16 to finish erecting the Billboard by placing an “advertising head” on the steel
pole. At approximately 8:15 AM, GEFT’s contractors
began their work by offloading steel components at the
site, on the ground near the pole. GEFT’s founder and
owner Jeffrey Lee was onsite that morning, along with
GEFT representative John Kisiel, two contractors
hired to perform sign erector work on the sign head installation (Marshall Heath Brock and Phillip Finn), a
crane operator, and others. At around 10:15 AM, Westfield City Inspector Matthew Skelton arrived at the
Esler Property along with two Westfield police officers.
They demanded that all work stop, and one of the police officers told Lee that if construction continued,
GEFT would be “asking for trouble.”
While the City Inspector and the officers were still
onsite, counsel for Westfield e-mailed GEFT’s counsel,
informing them that “GEFT or its agents . . . appear to
be attempting to continue to build a structure without
a permit in violation of the Westfield UDO and the Stop
Work Order. Law enforcement has been called and the
City will use its police powers as necessary to enforce
the stop work order.” Counsel for GEFT responded that
Westfield had no legal basis to cease activity at the Esler Property; Westfield’s counsel in turn cited the UDO
and noted that the city “has the authority to abate a
common nuisance by using its police powers.”
Back at the Esler Property, Skelton spoke with
each of GEFT’s onsite contractors, including Brock and
Finn, informing them that they would be fined if they

8a
continued to do any work on the Billboard in violation
of the Stop Work Orders. The crane operator demobilized the crane and the contractors stopped all their
work. But approximately five minutes after Skelton
and the police officers left the site, the contractors resumed installation of the Billboard.
About twenty minutes later, Brian Zaiger (a partner at a private law firm representing the city) arrived
at the site. Zaiger identified himself as a “City Attorney” and advised Lee that “the police were on their
way.” Zaiger then pointed at Lee and Kisiel and said
that if work was not stopped immediately, he would
have them arrested along with GEFT’s onsite contractors. When Lee said that this was a civil matter rather
than a criminal one, Zaiger responded that Lee was in
violation of the Stop Work Orders, any continued work
was a nuisance, and the only way to abate the nuisance
was to “throw you two in jail and then figure it out from
there.” Dur ing his exchange with Zaiger, Lee called
GEFT’s attorney and offered the phone to Zaiger;
Zaiger, however, said he “wasn’t interested” in speaking with him. According to Zaiger, he did not know it
was counsel for GEFT that was on the call, as Lee had
“just said he had a lawyer on the phone.”
Zaiger also approached the crane operator and
three other contractors to tell them that they would be
arrested if they continued to do work at the site. The
crane operator demobilized the crane and the contractors stopped performing any work. Lee also instructed
GEFT’s contractors to cease further work on putting
the advertising head onto the Billboard. Lee observed

9a
Zaiger tell a police officer who had returned to the site
that, because work had stopped on the sign, there was
no need to arrest anyone.
Westfield posted another Stop Work Notice on
GEFT’s pole on December 18, and it posted more comprehensive Stop Work Orders on the pole on January
19 and January 26, 2018. According to Lee, though,
GEFT stopped work on the Bill board only because of
Zaiger’s December 16 arrest threats, not because of the
city’s Stop Work Notices or Orders.
C. Preliminary Injunction & Restraining Order Motions
Three days after this confrontation at the Esler
Property, Westfield filed a motion for a restraining order compelling GEFT to immediately stop work on the
installation of its sign pending the outcome of its federal lawsuit. According to the city, this was necessary
to maintain the status quo during the litigation, and it
was warranted because GEFT had demonstrated its
refusal to adhere to the UDO’s permit requirements
and pole-sign ban.
GEFT then filed an amended complaint and its
own preliminary injunction motion. GEFT’s First
Amended Com plaint, which is the operative version
for purposes of appeal,4 included the three causes of
action in the original complaint:
4

Since filing this appeal, GEFT has moved to file a second
amended complaint and a supplemental complaint.

10a
(1) the Permit Exceptions violate the First Amendment and Article I, § 9 of the Indiana Constitution; (2)
the Off-Premises Ban violates the same provisions;
and (3) the Sign Standards are void for not fulfilling
the requirements of Indiana’s Home Rule. GEFT also
added two new causes of action to its com plaint based
on the events of December 16: (4) a due process claim
pursuant to 42 U.S.C. § 1983; and (5) a claim for abuse
of process. In its contemporaneous preliminary injunction motion, GEFT requested that the court enjoin
Westfield from (a) “Taking any further actions to enforce the Stop Work No tice;” (b) “Taking any further
actions to prevent GEFT from enjoying the use of its
property without due process of law;” and (c) “Threatening GEFT and/or its representatives with imprisonment, or imprisoning them, for violation of the UDO
and/or the Stop Work Notice (or any similar order)
when GEFT finishes construction of the . . . Billboard.”
After a hearing on both motions, the court denied
GEFT’s motion and granted Westfield’s motion on September 28, 2018. It ordered GEFT “to not continue any
work on its pole and digital sign in Westfield until after
resolution of this case on the merits.” This interlocutory appeal followed.
II.

Discussion

When reviewing a district court’s grant or denial
of a pre liminary injunction, “legal conclusions are reviewed de novo, findings of historical or evidentiary
fact for clear error, and the balancing of the injunction

11a
factors for an abuse of discretion.” Christian Legal
Soc’y v. Walker, 453 F.3d 853, 859 (7th Cir. 2006). To
obtain a preliminary injunction, a plaintiff “must establish that it has some likelihood of success on the
merits; that it has no adequate remedy at law; that
without relief it will suffer irreparable harm.” Planned
Parenthood of Ind. & Ky., Inc. v. Comm’r of Ind. State
Dep’t of Health, 896 F.3d 809, 816 (7th Cir. 2018). If the
plaintiff fails to meet any of these threshold requirements, the court “must deny the injunction.” Girl
Scouts of Manitou Council, Inc. v. Girl Scouts of U.S. of
Am., Inc., 549 F.3d 1079, 1086 (7th Cir. 2008). However,
if the plaintiff passes that threshold, “the court must
weigh the harm that the plaintiff will suffer absent an
injunction against the harm to the defendant from an
injunction, and consider whether an injunction is in
the public interest.” Planned Parenthood, 896 F.3d at
816. This Circuit “employs a sliding scale approach” for
this balancing: if a plaintiff is more likely to win, the
balance of harms can weigh less heavily in its favor,
but the less likely a plaintiff is to win the more that
balance would need to weigh in its favor. Id.
Like the district court, we begin our analysis with
GEFT’s preliminary injunction motion before turning
to Westfield’s motion. We note that our analysis of
these motions need not involve any discussion of
GEFT’s First Amendment challenges to specific Sign
Standards provisions. While GEFT has indisputably
challenged the constitutionality of the Sign Standards
in its complaint, its preliminary injunction motion focuses solely on its due process claim and does not

12a
request a ruling on the Sign Standards’ compliance
with the First Amendment. In fact, GEFT informed the
district court that “[r]esolution of these [First Amendment] constitutional issues is not necessary for resolution of GEFT’s preliminary injunction.” Westfield’s
motion also did not ask the district court to definitively
rule on the Sign Standards’ constitutionality. The district court thus did not address the merits of GEFT’s
First Amendment challenge to the Sign Standards,
and we will not reach them here in the first instance.
See Old Republic Ins. Co. Fed. Crop Ins. Corp., 947 F.2d
269, 276 (7th Cir. 1991) (“It is fundamental that on appeal to this court a litigant is restricted to those arguments which already have been raised at the district
court level.”).
A. GEFT’s Preliminary Injunction Motion
The district court denied GEFT’s preliminary injunction motion for two reasons. It first held that
GEFT had not shown it was reasonably likely to succeed on the merits of its due process claim. The district
court also concluded that a preliminary injunction in
GEFT’s favor was unwarranted “based upon the timing
and procedural history of GEFT’s and West field’s legal
steps taken.” More specifically, “GEFT’s actions of
knowingly violating the UDO, then later seeking this
[c]ourt’s intervention, and then again undertaking
work in violation of the UDO, undermines the propriety of equitable relief before the case can be fully adjudicated.” We consider each of these rationales in turn.

13a
1.

GEFT’s Due Process Claims

The Fourteenth Amendment’s Due Process Clause
pro vides that “[n]o State shall . . . deprive any person
of life, liberty, or property, without due process of law.”
U.S. Const. amend. XIV. This due process guarantee includes procedural and substantive components. See
County of Sacramento v. Lewis, 523 U.S. 833, 840
(1998). GEFT claims violations of both.
a.

Procedural Due Process

GEFT first argues Westfield violated its procedural due process rights when it stopped GEFT from
finishing construction on the Billboard. To determine
whether such a violation occurred, we first ask
whether GEFT has been deprived of a protected liberty
or property interest; and second, we ask whether that
deprivation occurred without due process.
See Black Earth Meat Mkt., LLC v. Village of Black
Earth, 834 F.3d 841, 848 (7th Cir. 2016).
To assess whether GEFT has a property interest
protected by due process, we look to an independent
source, such as state law, rather than the U.S. Constitution itself. See Cleveland Bd. of Educ. v. Loudermill,
470 U.S. 532, 538 (1985). GEFT’s leasehold in the Esler
Property is a protected interest that can support a procedural due process claim. See River Park, Inc. v. City
of Highland Park, 23 F.3d 164, 166 (7th Cir. 1994).5
5

GEFT also asserts that its state-issued Billboard permit is
a vested, protected property right under Indiana law that can

14a
The next part of this inquiry asks whether GEFT
has been deprived of this property right without due
process of law. See Hudson v. City of Chicago, 374 F.3d
554, 559 (7th Cir. 2004). GEFT asserts two different
theories of how it suffered a deprivation because of
Westfield’s actions. First, GEFT claims that the city deprived it of its property right in its lease by enforcing
an “invalid” stop work notice against it without no tice
or a hearing. According to GEFT, the UDO requires
that certain information be included in a “Stop Work
Order” from Westfield—a description of the violation
and the appeals process, the applicable enforcement
provisions of the UDO including penalties that may be
assessed, and a date for compliance. UDO art. 11.5(A).
But the November 7 Stop Work Notice did not contain
all this information, nor did Westfield’s November 22
letter. Thus, GEFT says, the Stop Work Notice was not

support its claim. This is unclear. While a state-granted building
permit might be a vested property right, see Metro. Dev. Comm’n
of Marion Cty. v. Pinnacle Media, LLC, 836 N.E.2d 422, 427–28
(Ind. 2005), Indiana’s Department of Transportation provides in
its regulations that all state permitting requirements are in addition to local requirements. Thus, GEFT only held its state Billboard permit subject to Westfield’s own permitting scheme. That
could mean GEFT’s property right in the permit never vested; alternatively, that could mean Westfield did not deprive GEFT of
any property right when it enforced the Sign Standards against
it, as GEFT always held the Indiana permit subject to the Sign
Standards. We do not need to decide the issue, as GEFT does have
a protected property right in its Esler Property leasehold that
could form the basis of a due process claim. And our analysis of
the process that GEFT received from Westfield would be the same
assuming it did have a protected property right in this permit and
had been deprived of that right.

15a
enforceable and provided no basis to order GEFT to
stop putting up its Billboard.
This theory cannot support a procedural due process claim. As an initial matter, GEFT’s own evidence
submitted in support of its motion demonstrates that
it stopped con structing the Billboard only because of
Zaiger’s arrest threats, not because of notices it received from Westfield. Lee states in his affidavit that
“GEFT contractors stopped working because of the
threat of incarceration, not because of a stop work or
der” and that “[b]ut for the threats of arrest noted
above, the work on the . . . Billboard that was planned
for December 16, 2017 . . . would have been completed.”
Kisiel agreed with Lee’s recitation of the facts of what
happened on December 16. And both Brock and Finn,
the two contractors onsite that day, said in affidavits
that “[w]ere it not for the threats of arrest . . . we would
have been able to complete the work that was planned
for December 16, 2017 to erect the sign head for the . . .
Billboard.” The Stop Work Notices therefore could not
have deprived GEFT of its property.
Even if the Stop Work Notices themselves halted
further work on the Billboard, and assuming this work
stoppage “deprived” GEFT of its leasehold interest,
GEFT’s only complaint about these notices is that they
did not comply with the UDO’s requirements. But
there is no constitutional procedural due process right
to state-mandated procedures. See Charleston v. Bd. of
Trs. of Univ. of Ill. at Chi., 741 F.3d 769, 773 (7th Cir.
2013); River Park, 23 F.3d at 166–67 (plaintiff “may not
have received the process [the state] directs its

16a
municipalities to provide, but the Constitution does
not require state and local governments to adhere to
their procedural promises”). The fact that the Stop
Work Notices did not comply with the UDO’s procedures cannot support a procedural due process claim,
and GEFT does not raise any other issue with the process it received via the Stop Work Notices beyond their
noncompliance with the UDO. Thus, it has not shown
any likelihood of success on the merits of its procedural
due process claim as it relates to these notices.6

6

Moreover, the process that GEFT was entitled to was what
was “due under the circumstances.” Charleston, 741 F.3d at 772;
see also Gilbert v. Homar, 520 U.S. 924, 930 (1997) (“[D]ue process
is flexible and calls for such procedural protections as the particular situation demands.” (alteration in original) (quoting Morrissey v. Brewer, 408 U.S. 471, 481 (1972))). The traditional
hallmarks of procedural due process are “notice and an opportunity to be heard.” Dietchweiler ex rel. Dietchweiler v. Lucas, 827
F.3d 622, 628 (7th Cir. 2016). Westfield provided both before
GEFT stopped erecting the Bill board. The November 7 Stop Work
Notice informed GEFT of how the steel pole installation allegedly
violated the UDO; Westfield’s November 22 letter provided even
more details about those violations, gave a proposed date for compliance, and warned that “further enforcement action” could follow if GEFT did not comply with Westfield’s ordinances. And
“[a]ny decision . . . in enforcement or application of [the UDO]
may be appealed to the [Board of Zoning Appeals] by any person
claiming to be adversely affected by such decision.” UDO art.
3.2(B)(1). GEFT could have taken advantage of that process before or after December 16 and received the opportunity to be
heard regarding Westfield’s contentions that its Billboard violated the Sign Standards. See River Park, 23 F.3d at 167 (procedural due process requirements for property owner’s loss were
satisfied where owner had “ample means to contest the runaround it was receiving at the hands of ” the defendant through
state law processes). We also note that GEFT could have applied

17a
GEFT also says that Westfield “violated its leasehold interest in the [Esler] Property by threatening
GEFT’s representatives with arrest and imprisonment.” But GEFT cannot support its claim based on
this theory either. When a plaintiff alleges a deprivation based on conduct that is “random and un authorized, the state satisfies procedural due process
requirements so long as it provides a meaningful postdeprivation remedy.” Leavell v. Ill. Dep’t of Nat. Res.,
600 F.3d 798, 805 (7th Cir. 2010) (alterations and citation omitted); see Armstrong v. Daily, 786 F.3d 529, 544
(7th Cir. 2015) (conduct is random and unauthorized
when “the state could not predict the conduct causing
the deprivation, could not provide a pre-deprivation
hearing as a practical matter, and did not enable the
deprivation through established state procedures and
a broad delegation of power”).
GEFT presented evidence that on December 16,
Zaiger came onto the Esler Property, identified himself
as the West field city attorney, and told Lee and the
others on the site that they would be arrested if work
was not stopped immediately. According to GEFT, it
for a permit before it began erecting the Bill board. While GEFT
can bring a pre-enforcement First Amendment challenge to the
Sign Standards without subjecting itself to that process, see
ACLU v. Alvarez, 679 F.3d 583, 590–91 (7th Cir. 2012), the permitting process remained available as a way for GEFT to engage
with Westfield’s Sign Standards and receive both notice and an
opportunity to be heard before being denied the right to install its
sign. GEFT does not take issue with the procedural adequacies of
any of these processes available to it to challenge Westfield’s decision preventing continued work on the Billboard.

18a
was only because of these threats that it stopped constructing the Billboard, and it was these threats that
therefore deprived it of its leasehold interest.7 But both
GEFT and Westfield agree that neither local nor state
law authorizes the arrest of anyone violating a municipal ordinance. Even if Zaiger is considered an employee of Westfield (which is an open question as
Zaiger worked for a private law firm representing the
city), GEFT has not identified any evidence Westfield
authorized Zaiger’s threats or even could have predicted he would make them that day. See Leavell, 600
F.3d at 806. As Westfield points out, the Indiana Tort
Claims Act pro vides a remedy for any abuse of process
that Zaiger’s actions represent. See Ind. Code § 34-133 et seq. GEFT has not made any attempt to show that
it took advantage of this process or that this remedy
would be insufficient to compensate it for what was lost
by Zaiger’s threats. See Veterans Legal Defense Fund v.
Schwartz, 330 F.3d 937, 941 (7th Cir. 2003) (“Given the
availability of state remedies that have not been
shown to be inadequate, plaintiffs have no procedural
due process claim.”). Because it has not made this
showing, GEFT has not demonstrated it is likely to

7

We note that is not clear GEFT was even deprived of anything: its leasehold interest in the Esler Property is subject to
state and local regulations, such as the UDO. See River Park, 23
F.3d at 167 (“State and local governments may regulate and even
take property; they must pay for what they take but are free to
use the land as they please.”). But Westfield makes no argument
to the contrary in its brief, and so we will assume that a deprivation occurred here.

19a
succeed on the merits of its procedural due process
claim.
And since GEFT has no likelihood of success on
the merits of this claim, there was no need for the district court to con duct further analysis of the “threshold
phase” for preliminary injunctive relief, or to move to
the “balancing phase.” See Valencia v. City of Springfield, 883 F.3d 959, 966 (7th Cir. 2018) (“If it is plain
that the party seeking the preliminary injunction has
no case on the merits, the injunction should be refused
regard less of the balance of harms.” (citation omitted)). GEFT is not entitled to its requested preliminary
injunction based on its procedural due process claim.
b.

Substantive Due Process

GEFT also seeks a preliminary injunction based
on an alleged violation of its substantive due process
rights. It argues that Westfield used Zaiger’s “unlawful
threat” of imprisonment “to coerce GEFT into not exercising its constitutional right to enjoy the use of its
[p]roperty.” According to GEFT, Zaiger’s conduct in this
regard “is so utterly arbitrary and irrational that it
shocks the conscience.”
The substantive component of the Due Process
Clause “bars certain arbitrary, wrongful government
actions ‘regard less of the fairness of the procedures
used to implement them.’ ” Porter v. DiBlasio, 93 F.3d
301, 310 (7th Cir. 1996) (quoting Zinermon v. Burch,
494 U.S. 113, 125 (1990)). The scope of a substantive
due process claim is limited. See Platt v. Brown, 872

20a
F.3d 848, 852 (7th Cir. 2017). When a plaintiff brings
such a claim challenging “harmful, arbitrary acts by
public officials,” this claim “must meet a high standard,
even when the alleged conduct was abhorrent, to avoid
constitutionalizing every tort committed by a public
employee.” Geinosky v. City of Chicago, 675 F.3d 743,
750 (7th Cir. 2012). More specifically, “the cognizable
level of executive abuse of power [is] that which shocks
the conscience.” Lewis, 523 U.S. at 846. “[O]nly the
most egregious official conduct” can meet this standard. Id.
GEFT is not likely to succeed on the merits of this
claim. Although Zaiger’s threats of arrest were certainly inappropriate insofar as Indiana law does not
provide a basis to arrest someone for violating a municipal ordinance, his threats are a far cry from the
type of conduct recognized as conscience shocking (especially considering that he did not follow through and
have anyone arrested). See, e.g., Rochin v. California,
342 U.S. 165, 172–73 (1952) (forcibly pumping criminal
suspect’s stomach shocked the conscience).8

8

GEFT also claims that Zaiger may have violated a rule of
professional conduct by speaking to Lee directly and refusing to
speak to GEFT’s lawyer. See Ind. Rules of Prof. Conduct 4.2 (“In
representing a client, a lawyer shall not communicate about the
subject of the representation with a person the lawyer knows to
be represented by another lawyer in the matter.”). Even assuming
such a violation did occur (which is not clear from the record), that
would not change this analysis. A violation of this rule may be
unprofessional, but that does not mean it shocks the con science.
See Tun v. Whitticker, 398 F.3d 899, 903 (7th Cir. 2005) (even

21a
In its reply brief, GEFT says that since Westfield
violated its property interest in its lease, Westfield violated its substantive due process rights even if
Zaiger’s conduct did not shock the conscience. However,
“[s]ubstantive due process is not ‘a blanket protection
against unjustifiable interferences with property.’ ”
Gen. Auto Serv. Station v. City of Chicago, 526 F.3d 991,
1000 (7th Cir. 2008) (quoting Lee v. City of Chicago, 330
F.3d 456, 461 (7th Cir. 2003)). If GEFT wishes to challenge Westfield’s interference with its property interests as a type of land-use decision that rises to the level
of a substantive due process violation, it “must first establish either an independent constitutional violation
or the inadequacy of state remedies to redress the deprivation.” Id. at 1001. GEFT has done neither. Therefore, GEFT cannot succeed on its substantive due
process claim under this theory.9
“abhorrent” behavior by officials does not necessarily shock the
conscience).
9
Even if Zaiger’s actions did rise to the level of conscienceshocking conduct or otherwise constitute a substantive due process violation, GEFT has not properly alleged that Westfield could
be held liable under § 1983 for his actions. GEFT brings its substantive due process claim under § 1983 against Westfield only;
however, there is no respondeat superior liability for municipalities under this statute. See Belcher v. Norton, 497 F.3d 742, 754
(7th Cir. 2007). The City could be liable if Zaiger was a “final
policymaker.” See id. (citing Pembaur v. City of Cincinnati, 475
U.S. 469, 481 (1986)). GEFT argues Zaiger’s actions “can fairly be
said to represent official policy,” but the mere fact that he worked
for Westfield does not show that, pursuant to state law, Zaiger
possessed such authority. See Pembaur, 475 U.S. at 480. This is
another reason why GEFT has not shown it is likely to succeed on
the merits of its substantive due process claim.

22a
As with the procedural due process claim, GEFT’s
substantive due process claim has no likelihood of success on the merits. Thus, the district court did not err
in declining to enter a preliminary injunction in
GEFT’s favor, and there is no need to continue with the
preliminary injunction analysis. See Girl Scouts, 549
F.3d at 1086.
2.

GEFT’s Unclean Hands

In addition to its decision that GEFT was unlikely
to succeed on the merits of its due process claims, the
district court also denied injunctive relief because
GEFT’s actions in “knowingly violating the UDO, then
later seeking this [c]ourt’s intervention, and then
again undertaking work in violation of the UDO, undermine[d] the propriety of equitable relief ” in its favor. This is so because “ordinances adopted by a city
are presumptively valid until a court has determined
them to be otherwise,” and “GEFT cannot unilaterally
decide that an ordinance is invalid and then disobey
it.”
GEFT challenges this “unclean hands” aspect of
the district court’s decision as well. We review the district court’s exercise of its “equitable judgment and discretion” in this regard for abuse of discretion. King v.
Kramer, 763 F.3d 635, 642 (7th Cir. 2014).
The purpose of the unclean-hands doctrine “is to
discourage unlawful activity.” Original Great Am.
Chocolate Chip Cookie Co. v River Valley Cookies, Ltd.,
970 F.2d 273, 281 (7th Cir. 1992); see Shondel v.

23a
McDermott, 775 F.2d 859, 868 (7th Cir. 1985)
(“ ‘[U]nclean hands’ really just means that in equity as
in law the plaintiff ’s fault, like the defendant’s, may be
relevant to the question of what if any remedy the
plaintiff is entitled to.”). According to GEFT, it could
not be at fault for refusing to apply for or obtain a permit before it started construction on the Billboard.
GEFT argues that because the Sign Standards are, in
its view, unconstitutional, it is as if they never existed,
and GEFT “cannot have unclean hands for not complying with a non-existent law.”
GEFT’s argument is premised on a misunderstanding about who has the authority to declare a law
void; GEFT itself does not have that power. After a
court holds that a statute or ordinance is unconstitutional, that legislation is void. See GEFT Outdoor LLC
v. Consol. City of Indianapolis & County of Marion, 187
F. Supp. 3d 1002, 1012 (S.D. Ind. 2016) (noting that because the court had ruled the ordinance at issue was
unconstitutional, the plaintiff could derive no rights
from it). But the court’s ruling that the law is invalid
is the crucial trigger for voiding it. Parties who believe
that a statute or ordinance is unconstitutional must
wait for that to happen before treating the challenged
law as nonexistent. They do not have free rein to invoke a court’s jurisdiction over a challenge to an ordinance, but to then act like the law does not exist before
the court reaches the merits of its challenge.
The constitutionality of the Permit Exceptions and
the Off-Premises Ban in the Sign Standards is one of
the main issues raised in GEFT’s complaint against

24a
Westfield. We express no opinion on the merits of these
First Amendment claims; it may be that GEFT eventually prevails and the district court will declare these
portions of the Sign Standards unconstitutional and
void. The court might also conclude that these portions
are not severable from the rest of the Sign Standards,
as GEFT argues, and that entire chapter of the UDO
must be declared void. But the district court has not
considered or accepted any of these arguments yet, so
various outcomes of GEFT’s challenge are still possible. The Sign Standards are still in force until that
happens. This is the basic principle the district court
applied in its decision to assess the equity of GEFT’s
actions in the context of this lawsuit—until a court declares that the Sign Standards are unconstitutional,
GEFT must presume that this chapter of the UDO is a
valid enactment of the city’s legislature that applies to
its conduct.
GEFT argues this is the wrong way to approach
its own challenge, though. It says that the Sign Standards are content based, and courts must presume that
a content-based law is unconstitutional. See Reed v.
Town of Gilbert, 135 S. Ct. 2218, 2226 (2015). But
GEFT confuses the issue: the presumption from Reed
applies when a court actually reviews a law for its compliance with the First Amendment. That is not what
either party asked the court to do in the context of
these injunction motions. Instead, GEFT sought an injunction because of alleged due process violations, and
Westfield sought one to maintain the status quo pending the ultimate resolution of the case. Neither GEFT

25a
nor Westfield asked the district court to rule on the
Sign Standards’ constitutionality, so Reed’s presumption did not apply.
The district court, faced with a situation where
GEFT had invoked the court’s power over its dispute
with Westfield, but then unilaterally acted in violation
of a still-valid ordinance, did not abuse its discretion in
determining that these actions supported denying
GEFT’s motion for equitable relief. Once GEFT filed its
lawsuit seeking a judicial determination on the Sign
Standards’ validity, it needed to let that process unfold
before treating them as nonexistent.10
B. Westfield’s Motion for a Restraining Order
After denying GEFT its requested injunctive relief, the district court stated that “[i]n light of ” its ruling on that motion, it would grant Westfield’s motion
10

Ordinarily, the unclean-hands doctrine “only applies when
there is a direct nexus between the bad conduct and the activities
sought to be enjoined.’ ” Shondel, 775 F.2d at 869 (quoting Int’l
Union, Allied Indus. Workers v. Local Union No. 589, 693 F.2d
666, 672 (7th Cir. 1982)). GEFT argues there is no nexus here
between its conduct and the activities it sought to enjoin because
“GEFT has not taken any action inconsistent with its re quest to
exercise its First Amendment rights.” But again, GEFT misconstrues the scope of its preliminary injunction motion. GEFT did
not ask for First Amendment-related injunctive relief; it asked
the court for an order allowing it to continue constructing the Billboard without interference from Westfield, despite its failure to
comply with the still-valid Sign Standards. A sufficient nexus exists between GEFT’s requested relief from this ordinance and its
actions in ignoring the ordinance to invoke this doctrine.

26a
for a restraining order “to the extent that it requests
an order prohibiting GEFT from continuing any work
on its pole and digital sign until after the [c]ourt rules
on the constitutionality of the UDO and resolves this
litigation on the merits.”
The district court did not conduct a separate analysis on Westfield’s motion, but such an analysis was
unnecessary considering its denial of GEFT’s motion.11
GEFT had asked the district court for an order enjoining Westfield from taking any further actions to enforce the Sign Standards against them, via the Stop
Work Notices or otherwise. The court determined that
GEFT was not entitled to this relief both because it had
no likelihood of success on the merits of its due process
claim, and because GEFT could not ignore the Sign
Standards just because it thought they were unconstitutional. Considering that ruling, Westfield’s motion
for an order re quiring that GEFT stop work on the
Billboard pending the outcome of the litigation on the
merits sought no more from the district court than the
logical consequence of its first decision—preventing
further actions by GEFT in contravention of the Sign
Standards. It was not an abuse of discretion for the district court to prevent GEFT from continuing any construction until the court ruled on whether it would
have needed a sign permit under the Sign Standards
11

Although Westfield’s motion is captioned as one for a “restraining order,” the district court treated it as one for a preliminary injunction. As GEFT received notice of it, this was proper,
and the motion can be re- viewed using the same preliminary injunction standard set out above. See Levas & Levas v. Village of
Antioch, 684 F.2d 446, 448 (7th Cir. 1982).

27a
to erect its Billboard. See Benisek v. Lamone, 138 S. Ct.
1942, 1945 (2018) (“[T]he purpose of a preliminary injunction is merely to preserve the relative positions of
the parties until a trial on the merits can be held.” (internal quotation marks omitted)).
III.

Conclusion

For the foregoing reasons, we AFFIRM the judgment of the district court.

28a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
GEFT OUTDOOR, L.L.C.,
Plaintiff,
v.

No. 1:17-cv-04063

CITY OF WESTFIELD,
HAMILTON COUNTY,
Defendant.
ENTRY ON DEFENDANT’S MOTION FOR
RESTRAINING ORDER AND PLAINTIFF’S
MOTION FOR PRELIMINARY INJUNCTION
WALTON-PRATT, J.

SEPTEMBER 28, 2018

This matter is before the Court on a Motion for Restraining Order (Filing No. 17) filed by Defendant City
of Westfield (“Westfield”) and a Motion for Preliminary
Injunction (Filing No. 18) filed by Plaintiff GEFT Outdoor, LLC (“GEFT”). GEFT began construction of a digital billboard in Westfield on the west side of U.S.
Highway 31 just south of Indiana State Road 32. Westfield determined that GEFT’s actions violated its local
ordinances and threatened imprisonment if GEFT continued erection of its sign. GEFT halted its activities
and initiated this lawsuit, seeking declaratory and injunctive relief pursuant to the First and Fourteenth
Amendments. Westfield filed a Motion for Restraining
Order, asking the Court to order GEFT to cease all

29a
work on its sign until this litigation has been resolved.
GEFT filed a Motion for Preliminary Injunction, asking the Court to enjoin Westfield from preventing
GEFT’s construction of the sign and threatening imprisonment if GEFT continued its work on the sign.
For the following reasons, the Court grants the Motion
for Restraining Order and denies the Motion for Preliminary Injunction.
BACKGROUND
GEFT is a company that buys and leases land to
then build, maintain, and operate signs on that land.
It disseminates commercial and noncommercial
speech on its billboards. Esler Properties, LLC (“Esler”) owns land located at 16708 Dean Road, Westfield,
Indiana, immediately adjacent to U.S. 31/Meridian
Street (the “Esler property”). Esler leased a portion of
its property to GEFT. Because they hold a leasehold
interest in the property, GEFT applied for and received
a permit from the State of Indiana to erect a digital
billboard on the Esler property. The state permit was
issued on October 5, 2017. GEFT intends to display
both commercial and noncommercial speech on the
digital billboard, and it had advertisers’ contracts lined
up for the digital billboard to begin in January 2018.
GEFT also possesses similar leasehold interests in portions of eight other properties located throughout
Westfield, and it plans to put up digital billboards on
those properties also (Filing No. 21 at 3, 6–7; Filing No.
19-1 at 2–3).

30a
GEFT erected a ten-foot by four-foot “no trespassing” sign at the Esler property within its leasehold interest and also installed a large steel pole into the
ground to serve as the foundation and structural support for its digital billboard. This steel pole was installed in either October or early November 2017
(Filing No. 21 at 6; Filing No. 19-1 at 2–3).
Then on November 3, 2017, GEFT initiated this
lawsuit, challenging the constitutionality of Westfield’s
local ordinances regarding sign restrictions and exemptions (Filing No. 1). Westfield’s Unified Development Ordinance (“UDO”) includes a chapter on “sign
standards”. The UDO provides that a “sign permit
shall be required for all signs . . . unless otherwise exempted herein.” (Filing No. 19-4 at 2.) The UDO then
provides a list of signs that are exempted from the permit requirement. Id. at 2–3. GEFT alleges that the exemptions, which apply to some commercial and some
noncommercial speech, apply solely based on the topic
or content of the speech on the sign; thus, the permit
requirement and the exemptions are a content-based
speech restriction.
The UDO also prohibits certain types of signs, including “off-premise signs,” which direct “attention to
a specific business, product, service, entertainment, or
any other activity offered, sold, or conducted elsewhere
than upon the lot where the Sign is displayed.” (Filing
No. 21 at 6; Filing No. 19-4 at 3–4.) An on-premise sign
is permitted and conveys information about things offered at that property, whereas an off-premise sign is
prohibited and conveys information about things

31a
offered at a different property. GEFT alleges that the
off-premise ban is an impermissible content-based
speech restriction.
In its original complaint, GEFT asserted three
claims. First, it asserted that the sign permit exemptions violate the free speech clause of the federal and
state constitutions. Second, it asserted that the ban on
off-premise signs violates the free speech clause of the
federal and state constitutions. Third, it asserted that
Westfield’s sign standards are void under Indiana’s
statutory “home rule” because the UDO was not enacted consistent with the requirements of the home
rule (Filing No. 1).
Four days after GEFT initiated this lawsuit, on
November 7, 2017, Westfield posted a “stop work notice” on the steel pole that GEFT had erected on the
Esler property. The notice noted violations of “installation of an accessory structure without a permit,” and
“installation of a sign without a permit.” (Filing No. 21
at 8; Filing No. 19-1 at 3, 9.)
Two weeks later, on November 21, 2017, GEFT notified Westfield that it believed the sign ordinances
were unconstitutional, and it intended to complete the
work on erecting the digital billboard within the next
thirty days (Filing No. 37-1 at 2–4). On November 22,
2017, Westfield responded to GEFT’s letter, notifying
GEFT and Esler (the property owner) that they were
violating the UDO regarding signs and an accessory
structure. Westfield’s letter instructed GEFT and Esler

32a
to remedy the violation within thirty days to avoid an
enforcement action (Filing No. 37-2 at 2–7).
On December 16, 2017, GEFT mobilized a construction team to put an “advertising head” on the steel
pole and to then place the digital billboard. After they
had been on site for a couple of hours, GEFT and its
contractors were confronted by a Westfield inspector
and a Westfield police officer and sergeant. They demanded that work at the site cease. When GEFT representatives asked what would happen if they
continued working, they were told that they would be
asking for trouble. The Westfield inspector then went
to each of the contractors and told them that they
would be issued a fine if they continued working on the
site (Filing No. 19-1 at 3–4).
The police officers and city inspector left the site,
and approximately twenty minutes later, Brian Zaiger
(“Zaiger”) arrived at the site and introduced himself as
the city attorney. Zaiger threatened the GEFT representatives and contractors that they would be arrested
if they continued working at the site because it was a
“common nuisance.” GEFT called its attorney and
asked him to talk with Zaiger, but Zaiger refused to
talk with GEFT’s attorney. Because they did not want
to risk arrest, GEFT and its contractors stopped all
work at the site. Id. at 5–6.
Three days after the confrontation at the work
site, on December 19, 2017, Westfield filed its Motion
for Restraining Order. Westfield asked the Court to
prohibit GEFT from continuing any work on the steel

33a
pole and digital sign at the Esler property until this
litigation has reached a conclusion (Filing No. 17).
The following day, on December 20, 2017, GEFT
filed its Motion for Preliminary Injunction, asking the
Court to prohibit Westfield from taking actions to enforce the stop work notice and from threatening to imprison GEFT’s representatives and contractors when it
finishes construction of its digital billboard. GEFT also
asked for a preliminary injunction prohibiting Westfield from taking actions that prevent GEFT from enjoying the use of its property without due process of
law (Filing No. 18). Also on December 20, 2017, GEFT
filed an Amended Complaint. (Filing No. 21). The
amended and operative complaint asserts the three
claims alleged in the original complaint, and adds two
new claims: a Section 1983 claim for violation of due
process rights, and an abuse of process claim. Id. at 2022.
LEGAL STANDARD
“A preliminary injunction is an extraordinary
remedy never awarded as of right.” Winter v. Natural
Resources Defense Council, Inc., 555 U.S. 7, 24 (2008).
“In each case, courts must balance the competing
claims of injury and must consider the effect on each
party of the granting or withholding of the requested
relief.” Id. (citation and quotation marks omitted).
Granting a preliminary injunction is “an exercise of a
very far-reaching power, never to be indulged in except
in a case clearly demanding it.” Roland Mach. Co. v.

34a
Dresser Indus., Inc., 749 F.2d 380, 389 (7th Cir. 1984)
(citation and quotation marks omitted).
When a district court considers whether to issue a
preliminary injunction, the party seeking the injunctive relief must demonstrate that “it is likely to succeed
on the merits, that it is likely to suffer irreparable
harm in the absence of preliminary relief, that the balance of equities tips in its favor, and that issuing an
injunction is in the public interest.” Grace Schs. v. Burwell, 801 F.3d 788, 795 (7th Cir. 2015). The greater the
likelihood of success, the less harm the moving party
needs to show to obtain an injunction, and vice versa.
Girl Scouts of Manitou Council, Inc. v. Girl Scouts of
the United States of America, Inc., 549 F.3d 1079, 1086
(7th Cir. 2008).
DISCUSSION
Westfield filed its Motion for Restraining Order
first, asking the Court to order GEFT to cease all work
on its steel pole and digital sign in violation of the UDO
until this litigation has concluded. One day later,
GEFT filed its Motion for Preliminary Injunction, asking the Court to enjoin Westfield from preventing
GEFT’s construction of the sign and threatening imprisonment if GEFT continues its work on the sign.
The Court will first address GEFT’s Motion for Preliminary Injunction.
The Court initially notes that, while GEFT’s
Amended Complaint asserts First Amendment free
speech claims, GEFT explains that “resolution of these

35a
constitutional issues is not necessary for resolution of
GEFT’s preliminary injunction.” (Filing No. 19 at 3,
n.2.)
GEFT argues that it can use its property however
it chooses, subject only to legally enacted laws and subject to due process. It asserts that it has a property
right in the leased land and in erecting the digital billboard based on the state sign permit and the lease with
Esler. GEFT argues that Westfield has deprived it of
its property rights through an invalid stop work notice
and an improper threat of imprisonment, and has deprived GEFT of its constitutionally protected right to
due process.
GEFT asserts that it is likely to succeed on the
merits of its claim that Westfield deprived it of its substantive and procedural due process rights. It argues
that Westfield did not provide notice and an opportunity to be heard before Westfield deprived it of property rights in the leased property and to build its
digital billboard. By virtue of the lease agreement and
the state building permit, GEFT asserts that it had a
valid, cognizable property interest.1 GEFT argues it is
entitled to a pre-deprivation hearing, and such was not
provided by Westfield. Instead, Westfield threatened
imprisonment if GEFT did not immediately stop work
1

See Metro. Dev. Comm’n v. Pinnacle Media, LLC, 836
N.E.2d 422, 427–28 (Ind. 2005) (building permit lawfully issued
can constitute a vested property right); River Park v. City of Highland Park, 23 F.3d 164, 166 (7th Cir. 1994) (interest in land is
constitutionally protected property right subject to due process
protection).

36a
on December 16, 2017. See Armstrong v. Manzo, 380
U.S. 545, 552 (1965) (right to notice and an opportunity
to be heard “at a meaningful time and in a meaningful
manner”); Boddie v. Connecticut, 401 U.S. 371, 378–79
(1971) (“That the hearing required by due process is
subject to waiver, and if not fixed in form does not affect its root requirement that an individual be given an
opportunity for a hearing before he is deprived of any
significant property interest, except for extraordinary
situations where some valid governmental interest is
at stake that justifies postponing the hearing until after the event.”). GEFT further argues that Westfield’s
stop work notice did not provide sufficient information—it was even lacking information required by
its own UDO—to give GEFT any reasonable notice,
thereby depriving GEFT of due process. The stop work
notice did not specify a date for compliance, describe
the appeals process, describe the enforcement provisions, or describe any penalties that may be assessed
for violating the stop work notice. GEFT argues that
the stop work notice is invalid and therefore cannot be
used to stop GEFT’s work at the site.
Regarding a substantive due process violation,
GEFT asserts that the steel pole, the digital billboard,
and any alleged violation of the local sign ordinance
are not a criminal nuisance and cannot serve as the
basis for imprisonment. Thus, Westfield’s reliance on
these facts to threaten imprisonment violates GEFT’s
substantive due process rights to liberty. GEFT points
out that the Indiana Code authorizes local municipalities to issue penalties for violation of local ordinances,

37a
but the Indiana Code expressly does not give municipalities the power to imprison for an ordinance violation. Ind. Code § 36-1-3-8(a)(9). Because Westfield
threatened imprisonment for an alleged violation of a
local ordinance, and it expressly does not have such authority, GEFT argues that Westfield’s conduct shocks
the conscience and violates its substantive due process
rights.
Additionally, freedom from bodily restraint is a
core fundamental liberty interest, and Westfield’s action infringing on this right violated substantive due
process. Foucha v. Louisiana, 504 U.S. 71, 80, 112 S. Ct.
1780, 1785 (1992) (“Freedom from bodily restraint has
always been at the core of the liberty protected by the
Due Process Clause from arbitrary governmental action.”).
GEFT asserts that the due process violation is
compounded by the fact that the threat of imprisonment came from Westfield’s attorney who was obligated to follow the Indiana Rules of Professional
Conduct. This includes the prohibition against communicating about a case with a party who the lawyer
knows is represented by another lawyer. Westfield’s attorney, Zaiger, communicated directly with GEFT
without GEFT’s attorney’s consent, and he threatened
imprisonment over the actions directly involved in this
litigation.
GEFT alleges that there is no adequate remedy at
law and it will suffer irreparable harm if a preliminary
injunction does not issue. GEFT argues that it is well

38a
established that when an alleged deprivation of a constitutional right is involved, most courts hold that no
further showing of irreparable injury is necessary, citing Planned Parenthood of Ind. & Ky., Inc. v. Comm’r,
Ind. State Dep’t of Health, 258 F. Supp. 3d 929, 954–55
(S.D. Ind. 2017). GEFT asserts that this case is about
more than just money; it also involves the deprivation
of free speech rights guaranteed by the First Amendment. GEFT argues that Westfield has deprived it of
the ability to express itself via the digital billboard, so
GEFT has shown an irreparable harm. GEFT also argues that there is no adequate remedy at law and it
will suffer irreparable harm if Westfield continues to
threaten imprisonment.
Finally, GEFT asserts that the harm it suffered
outweighs any harm to Westfield because Westfield
simply will be enjoined from taking actions against
GEFT that it is not authorized under Indiana law to
take against GEFT, whereas, without an injunction,
GEFT will suffer deprivation of its constitutional
rights. It notes that there is a strong public interest in
protecting due process rights as well as in attorneys
following the rules of professional conduct.
Responding in opposition to a preliminary injunction (and in support of its Motion for Restraining Order), Westfield argues that this case can and should be
resolved on the UDO’s blanket prohibition against
“pole signs,” which is content and location neutral,
and thus does not give rise to a constitutional issue.
Westfield explains, regardless of how the Court eventually decides the constitutional questions about the

39a
off-premise ban and the exemptions to the permit requirement, the pole sign ban will still prohibit GEFT’s
digital billboard because it is a pole sign. Thus, Westfield argues, the Court should avoid the constitutional
questions altogether, deny GEFT’s preliminary injunction, and decide in Westfield’s favor.
Westfield also asserts that ordinances adopted by
a city are presumptively valid until a court has determined them to be otherwise, citing Hobble By and
Through Hobble v. Basham, 575 N.E.2d 693, 696–97
(Ind. Ct. App 1991). As such, at this point without a
court order stating otherwise, Westfield’s sign ordinances are valid. GEFT cannot unilaterally decide that
the ordinances are invalid and unconstitutional and
unilaterally decide to act in contravention of the ordinances without consequence. But GEFT did so and
comes before the Court with unclean hands and therefore is not entitled to injunctive relief.
Westfield explains that GEFT’s permit from the
State of Indiana to erect a billboard is immaterial because the State’s authority over outdoor advertising
along highways does not displace local laws and ordinances regulating placement of billboards. The state
regulations explicitly recognize that state permitting
is in addition to local permitting and licensing requirements, and thus, GEFT’s state permit does not displace
Westfield’s local ordinances or grant GEFT property
rights contrary to local ordinances.2 Because the
2

“The permit requirements contained herein are in addition
to any permit or licensing requirements of local governing bodies,

40a
Indiana Department of Transportation’s (“INDOT”)
regulations expressly state its permit must be obtained in addition to any permit required by local ordinances, and because GEFT did not seek a sign permit
from Westfield, GEFT does not have a vested
*

*

*

Westfield asserts that GEFT unilaterally (and
without authority) decided that Westfield’s UDO was
unconstitutional, so it ignored the ordinances and began erecting its pole sign without first seeking a permit
from Westfield. GEFT was aware of the ordinances prohibiting its actions but still proceeded to move forward
with its work. GEFT has unclean hands and cannot
now seek equitable relief in the form of a preliminary
injunction. See Young v. Verizon’s Bell Atl. Cash Balance Plan, 615 F.3d 808, 822 (7th Cir. 2010) (“unclean
hands” doctrine provides that “equitable relief will be
refused if it would give the plaintiff a wrongful gain,”
and further, the “plaintiff who acts unfairly, deceitfully,
or in bad faith may not through equity seek to gain
from that transgression”).
A preliminary injunction is an extraordinary remedy never awarded as a matter of right, and not to be
granted unless the movant, by a clear showing, carries
or other state agencies.” Ind. Dept. of Trans. Outdoor Advertising
Control Manual, Feb. 6, 2014, at 46, https://www.in.gov/indot/
files/Permits_OutdoorAdvertisingControlManual_2014.pdf (last
visited Sept. 28, 2018). property right to erect its sign and GEFT
does not have an interest that rises to the level of a constitutionally protected property right. Swartz v Scruton, 964 F.2d 607,
609–11 (7th Cir. 1992).

41a
the burden of persuasion. Planned Parenthood, 194
F. Supp. 3d at 823. Westfield argues that GEFT cannot
demonstrate a reasonable likelihood of success on the
merits because GEFT ignores facts concerning the due
process afforded to it. Westfield posted the stop work
notice on November 7, 2017, indicating that GEFT was
in violation of ordinances and should stop working on
the sign. This notice was followed up with the November 22, 2017 letter from Westfield, explaining the ordinance violations and providing a date for compliance.
Westfield argues that the stop work notice, the follow
up letter, and the publication of the local ordinances on
Westfield’s website provided sufficient notice and due
process to GEFT. Importantly, because GEFT did not
obtain the necessary sign permit from Westfield, GEFT
did not have a vested property right to erect the steel
pole or a digital sign, and thus, it did not have an interest that rises to the level of a constitutionally protected property right.
Westfield also argues that, while no constitutional
deprivation has occurred, even if a deprivation has
occurred, GEFT still has available to it adequate postdeprivation procedures, thereby providing due process.3 Westfield points out that the Indiana Tort Claims
3

See Leavell v. Ill. Dep’t of Nat. Res., 600 F.3d 798, 805 (7th
Cir. 2010) (“When the state conduct in question is random and
unauthorized, the state satisfies procedural due process requirements so long as it provides a meaningful post-deprivation remedy. Thus, we have stated that, for a plaintiff alleging a
procedural due process claim based on ‘random and unauthorized’
conduct of a state actor, the plaintiff must either avail herself of
state post-deprivation remedies or demonstrate that the available
remedies are inadequate.”).

42a
Act provides an adequate procedure for GEFT to seek
redress for any alleged wrongs committed by Westfield.
If Westfield randomly committed an abuse of process
by threatening imprisonment without the authority to
do so, then GEFT can pursue an Indiana tort claim
against Westfield. Westfield further asserts that GEFT
actually was required to pursue such a remedy first.
Because GEFT failed to pursue such procedures,
GEFT has prematurely pursued a federal due process
claim. Leavell, 600 F.3d at 805–06 (a failure to give adequate notice is random and unauthorized, and thus
post-deprivation procedures must be evaluated; however, a “state cannot be held to have violated due process requirements when it has made procedural
protection available and the plaintiff has simply refused to avail himself of them”).
Westfield asserts that in light of the facts of this
case, there is nothing that shocks the conscience regarding Westfield’s conduct to support a substantive
due process claim. The parties had been disputing
GEFT’s ability to erect the pole sign, and GEFT had
unilaterally decided that Westfield’s sign ordinances
were unconstitutional. GEFT knew that Westfield did
not allow its pole sign and still proceeded to perform
its unauthorized work. Westfield’s representatives
simply were enforcing the valid sign ordinances when
they confronted GEFT’s employees and contractors
and demanded that they stop working at the site. They
continued their work until Westfield’s attorney threatened arrest. Westfield argues that nothing in its conduct shocks the conscience, and there is no substantive
due process violation.

43a
Westfield further argues that, even if its threat of
arrest was mistakenly unauthorized, the threat was
reasonably justified to serve legitimate governmental
interests in safeguarding the public’s health and safety
by stopping the construction of a structure that had
not been subjected to any building or electrical safety
inspections, protecting the community’s aesthetic
value, and minimizing risk to traffic safety. Again,
Westfield’s conduct is far from shocking the conscience
in a constitutional sense.
Concerning adequate remedies at law and irreparable harm, Westfield asserts that this case is strictly
about money, and GEFT has plainly requested money
damages for its alleged injury. Therefore, GEFT has an
adequate remedy, and it has not been and will not be
irreparably harmed without a preliminary injunction.
Westfield asserts it has a valid interest in guiding the
growth and development of the community, and its local ordinances have as their purpose to protect the residents of Westfield and to promote the public health,
safety, convenience, and general welfare of the community. Allowing GEFT to construct a pole sign in contravention of local ordinances would cause harm to the
community as a whole, which outweighs any potential
harm GEFT may claim while it allows the Court to address the allegations of the Amended Complaint on the
merits. In GEFT’s reply, concerning balancing the parties’ interests and harms, GEFT argues that Westfield’s public safety and traffic safety argument is
belied by the fact that Westfield High School maintains
two digital signs on its football stadium approximately

44a
two miles north of GEFT’s sign, facing the same road
(U.S. 31/Meridian Street). Those signs advertise for
commercial businesses and violate Westfield’s UDO because they are off-premise signs and because the messages on the billboards change more than once an hour.
The signs also violate INDOT’s regulations by changing messages more than once every eight seconds.
However, GEFT knows of no enforcement action
against Westfield High School. GEFT asserts that the
implication of this lack of action against Westfield
High School is that there is no risk to traffic safety
posed by digital billboards.
GEFT asserts that Westfield’s actions have prevented work on the digital billboard, thereby preventing GEFT from exercising its right to commercial
speech and denying GEFT revenue from that speech.
It has incurred extra, unnecessary construction costs
for mobilizing and remobilizing. GEFT argues a party
can seek monetary and injunctive relief simultaneously, and a constitutional violation is presumed irreparable without an adequate remedy at law.
GEFT also argues that Westfield’s Indiana Tort
Claims Act argument is now moot because GEFT
served a tort claim notice on January 25, 2018—one
day before filing its reply brief in this litigation and
more than two months after initiating this lawsuit. Regarding its abuse of process claim, GEFT acknowledges in a footnote that “its state tort claims could be
subject to a 90-day waiting period set forth in the Indiana Tort Claims Act. If necessary, GEFT will dismiss

45a
the state tort claims without prejudice and re-file
later.” (Filing No. 40 at 11, n.4.)
After reviewing the parties’ arguments and evidence as well as the supporting case law, the Court determines that the issuance of a preliminary injunction
is not warranted. While a leasehold interest in land is
(as GEFT phrased it) a property interest “worthy of
constitutional protection,” GEFT also acknowledged at
the beginning of its argument in its opening brief that
GEFT’s use of its property is subject to “legally enacted
restrictive government laws.” (Filing No. 19 at 10.) And
as Westfield correctly pointed out, ordinances adopted
by a city are presumptively valid until a court has determined them to be otherwise. Hobble, 575 N.E.2d at
696–97. GEFT cannot unilaterally decide that an ordinance is invalid and then disobey it. Westfield’s UDO
places certain restrictions on GEFT’s use of its property. The UDO requires a property owner to obtain a
permit to erect certain signs, and it also prohibits some
signs. Although GEFT obtained an INDOT permit to
erect its sign, INDOT’s regulations explicitly note that
local ordinances also apply. Thus, GEFT was required
to comply with Westfield’s UDO and obtain a local sign
permit to erect its sign.
Without first obtaining a Westfield sign permit,
GEFT put up a “no trespassing” sign and installed the
large steel pole into the ground in October or early November 2017. Then on November 3, 2017, GEFT initiated this lawsuit, challenging the constitutionality of
Westfield’s UDO. Four days after GEFT initiated this
lawsuit, Westfield posted its “stop work notice” on the

46a
pole. Despite the “notice,” GEFT responded to Westfield, stating that it believed the UDO was unconstitutional, and it intended to complete the work on the
digital billboard within the next thirty days. The next
day, Westfield responded to GEFT to explain that it
was violating the UDO and directed it to remedy the
violation within thirty days to avoid an enforcement
action. Even though it already had initiated this lawsuit to seek the Court’s intervention, and without waiting for any orders from the Court, GEFT unilaterally
decided the UDO was unconstitutional and mobilized
a construction team to finish its work on the digital
billboard on December 16, 2017.
Given the facts adduced at this stage of the case
regarding GEFT’s unilateral determinations and
wrongful actions as well as Westfield’s responses to
GEFT’s persistent wrongful actions, the Court cannot
conclude at this point that GEFT is reasonably likely
to succeed on the merits of its due process claims.
GEFT may or may not ultimately prevail on the merits,
but having failed to meet this element, a preliminary
injunction is not warranted. This determination also is
based upon the timing and procedural history of
GEFT’s and Westfield’s legal steps taken. GEFT’s actions of knowingly violating the UDO, then later seeking this Court’s intervention, and then again
undertaking work in violation of the UDO, undermines
the propriety of equitable relief before the case can be
fully adjudicated.
In light of the Court’s ruling on the Motion for Preliminary Injunction, the Court grants Westfield’s

47a
Motion for Restraining Order to the extent that it requests an order prohibiting GEFT from continuing any
work on its pole and digital sign until after the Court
rules on the constitutionality of the UDO and resolves
this litigation on the merits.
CONCLUSION
For the foregoing reasons, Westfield’s Motion for
Restraining Order (Filing No. 17) is GRANTED, and
GEFT’s Motion for Preliminary Injunction (Filing No.
18) is DENIED. There are a number of other pending
motions in this case that relate to the Motion for Restraining Order and the Motion for Preliminary Injunction. These other pending motions request leave to
file additional materials in connection with the Motions or request that a ruling be made by a certain
date. These other pending motions are DENIED as
moot: Motion to Strike Portions of the City’s PostHearing Brief (Filing No. 60), Motion for Leave to Submit Supplemental Evidence (Filing No. 61), Objection
to GEFT’s Motion for Leave to Submit Supplemental
Evidence (Filing No. 63), Motion for Temporary Restraining Order (Filing No. 65), and Motion for Ruling
Before September 29, 2018 (Filing No. 74).
It is the Court’s intent that the status quo be
maintained until further order from this Court. GEFT
is ORDERED to not continue any work on its pole and
digital sign in Westfield until after resolution of this
case on the merits.

48a
SO ORDERED.
Date: 9/28/2018

/s/ Tanya Walton Pratt
TANYA WALTON PRATT,
JUDGE
United States District Court
Southern District of Indiana

DISTRIBUTION:
A. Richard M. Blaiklock
LEWIS WAGNER LLP
rblaiklock@lewiswagner.com
Charles R. Whybrew
LEWIS WAGNER LLP
cwhybrew@lewiswagner.com
Tiaundra Marie Foster
KRIEG DEVAULT LLP
tfoster@kdlegal.com
Mark J. R. Merkle
KRIEG DEVAULT LLP
mmerkle@kdlegal.com
Pamela G. Schneeman
STEPHENSON MOROW & SEMLER
pschneeman@stephlaw.com
Lauren C. Sorrell
KRIEG DEVAULT LLP
lsorrell@kdlegal.com
James S. Stephenson
STEPHENSON MOROW & SEMLER
jstephenson@stephlaw.com

49a
APPENDIX C
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
May 23, 2019
JOEL M. FLAUM, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
GEFT OUTDOORS, LLC,
Plaintiff-Appellant,
v.
CITY OF WESTFIELD,
Hamilton
County, Indiana,
Defendant-Appellee.

Appeal from the United
States District Court
For The Southern
District of Indiana
No. 1:17-cv-04063
WALTON-PRATT, J.

ORDER
On consideration of the petition for rehearing and
petition for rehearing en banc filed by the plaintiffappellant in the above case on May 8, 2019, no judge
in active service has requested a vote thereon and all
judges on the original panel have voted to deny the petition. The petition is therefore DENIED.

